TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Fiscal Year 2009 Statutory Review of
                       Restrictions on Directly Contacting
                                   Taxpayers



                                          March 24, 2009

                              Reference Number: 2009-30-054




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   March 24, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Fiscal Year 2009 Statutory Review of Restrictions
                                 on Directly Contacting Taxpayers (Audit # 200930018)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with legal guidelines addressing the direct contact of taxpayers and their
 representatives, as set forth in Internal Revenue Code Sections 7521(b)(2) and (c). The Treasury
 Inspector General for Tax Administration is statutorily required to conduct this audit.

 Impact on the Taxpayer
 The Omnibus Taxpayer Bill of Rights1 created a number of safeguards to protect taxpayers being
 interviewed by an IRS employee as part of an examination or investigation. IRS employees are
 required to stop an interview if the taxpayer requests to consult with a representative and may not
 bypass a representative without supervisory approval. Between October 2007 and
 September 2008, six complaint/investigation cases closed by the Treasury Inspector General for
 Tax Administration Office of Investigations found that IRS employees improperly bypassed
 taxpayer representatives and were either counseled or reprimanded for their actions.




 1
     Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
                    Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                       Contacting Taxpayers




Synopsis
Ultimately, the IRS relies on its employees to ensure that the direct contact provisions of Internal
Revenue Code Sections 7521(b)(2) and (c) are followed. These provisions specifically require
IRS employees to:
    •   Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
    •   Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
        representative if the representative is responsible for unreasonably delaying the
        completion of an examination or investigation.
To assist employees in meeting these responsibilities and address the requirements of the law,
the Internal Revenue Manual2 provides IRS employees with directions and explanations of the
statutory and administrative procedures to follow in their day-to-day contacts with taxpayers and
their representatives. The IRS has also revised various publications to better inform taxpayers of
their rights, including some revisions that are related to the direct contact provisions of the
Internal Revenue Code.
The six substantiated complaint/investigation cases closed during Fiscal Year 2008 are very
small compared to the millions of taxpayer contacts IRS examiners and collectors make each
year. However, neither we nor the IRS can provide assurances that there were not other potential
direct contact violations. As we previously reported,3 IRS management information systems do
not separately record or monitor cases that involve direct contact issues, and there is no legal
requirement to do so. Given the small number of complaints received in this area over the years,
establishing such a system may entail costs that would outweigh potential benefits. However,
the IRS could take better advantage of group manager review processes to ensure that
Examination function employees are properly following the direct contact provisions.
Currently, there is no requirement in the Internal Revenue Manual that specifically requires
Examination function group managers to address direct contact issues during reviews even
though such reviews are a key control component that ensures procedures are followed and work
is meeting acceptable standards. Having such a requirement is consistent with the Government
Accountability Office Standards for Internal Control in the Federal Government,4 which
requires that control activities help ensure that management directions to mitigate risks are
followed. The requirement would also be consistent with Internal Revenue Manual guidance for
Collection function group manager reviews. Most importantly, perhaps, the documentation from
the reviews could provide needed support to provide greater assurances that Examination

2
  A manual containing the IRS’ internal guidelines.
3
  Fiscal Year 2008 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference Number
2008-40-090, dated March 27, 2008).
4
  GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                                         2
                 Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                    Contacting Taxpayers



function employees are following the direct contact provisions in their day-to-day contact with
taxpayers and their representatives.

Recommendation
We recommended that the Commissioner, Small Business/Self-Employed Division, update the
Internal Revenue Manual to include specific guidance for Examination function group managers
to ensure that requirements mandated by Internal Revenue Code Sections 7521(b)(2) and (c) are
understood and followed by their employees.

Response
IRS management agreed with our recommendation and will update Internal Revenue Manual
Section 1.4.40 to include specific guidance for Examination function group managers to ensure
that the requirements of Internal Revenue Code Sections 7521(b)(2) and (c) are understood and
followed. Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                  3
                       Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                          Contacting Taxpayers




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Manual Provides Employees With Guidance
          to Help Ensure Compliance With the Direct Contact Provisions .................Page 3
          The Internal Revenue Service Has Informed Taxpayers of Their
          Rights Through Various Publications...........................................................Page 3
          Compliance With Statutory Requirements for Restrictions on
          Directly Contacting Taxpayers Cannot Be Determined ...............................Page 4
                    Recommendation 1:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Management’s Response to the Draft Report ......................Page 11
         Fiscal Year 2009 Statutory Review of Restrictions on Directly
                            Contacting Taxpayers




                        Abbreviations

I.R.C.            Internal Revenue Code
IRM               Internal Revenue Manual
IRS               Internal Revenue Service
RRA 98            Restructuring and Reform Act of 1998
                    Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                       Contacting Taxpayers




                                            Background

The Omnibus Taxpayer Bill of Rights1 created a number of safeguards to protect taxpayers being
interviewed by Internal Revenue Service (IRS) employees as part of an examination or
investigation. Specifically, IRS employees are required by the direct contact provisions of
Internal Revenue Code (I.R.C.) Sections (§§) 7521(b)(2) and (c) to:
    •   Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
    •   Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
        representative if the representative is responsible for unreasonably delaying the
        completion of an examination or investigation.
A taxpayer can file a civil suit against the IRS if an IRS employee intentionally disregards these
provisions by denying a taxpayer the right to appropriate representation.
On July 22, 1998, the President signed into law the IRS Restructuring and Reform Act of 1998
(RRA 98),2 which required the IRS to revise Your Rights as a Taxpayer (Publication 1) to inform
taxpayers of their rights to 1) be represented at interviews and 2) suspend an interview pursuant
to I.R.C. § 7521(b)(2). In addition, Congress added
I.R.C. § 7803(d)(1)(A)(ii) to the RRA 98, which requires          The Treasury Inspector General
the Treasury Inspector General for Tax Administration to              for Tax Administration is
annually evaluate the IRS’ compliance with the direct            required to annually evaluate the
contact provisions. Senate Committee on Finance Report            IRS’ compliance with the direct
                                                                        contact provisions of
105-174 (dated April 22, 1998), related to the RRA 98               I.R.C. §§ 7521(b)(2) and (c).
§ 3502 provision, stated that Congress believes taxpayers
should be more fully informed of their rights to
representation in dealing with the IRS and those rights
should be respected.
This review was performed at the IRS National Headquarters in the offices of the Commissioner
and the National Taxpayer Advocate in Washington, D.C., and in the Small Business/
Self-Employed Division Headquarters in New Carrollton, Maryland, during the period
October 2008 through January 2009. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained

1
 Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
2
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                           Page 1
                 Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                    Contacting Taxpayers



provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                       Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                          Contacting Taxpayers




                                        Results of Review

The Internal Revenue Manual Provides Employees With Guidance to
Help Ensure Compliance With the Direct Contact Provisions
Following enactment of the Omnibus Taxpayer Bill of Rights in 1988, the IRS began to establish
written procedures regarding taxpayer interviews for employees to follow and planned to further
enhance those procedures as needed. The initial procedures required employees to meet the legal
guidelines imposed by the direct contact provisions and to document the related actions in the
taxpayer’s case file. Enactment of the RRA 98 further enhanced the procedures and guidelines
related to the direct contact issues.
In response to prior Treasury Inspector General for Tax Administration reports, the IRS updated
the procedures and guidelines for directly contacting taxpayers and their representatives in its
Internal Revenue Manual (IRM).3 The IRM provides IRS employees with directions and
explanations of the statutory and administrative procedures to follow in their day-to-day contacts
with taxpayers and their representatives.

The Internal Revenue Service Has Informed Taxpayers of Their Rights
Through Various Publications
The IRS uses Your Rights as a Taxpayer (Publication 1) as the main document to keep taxpayers
informed of their rights and to explain the examination, collection, appeals, and refund
processes. Taxpayers are provided a copy of Publication 1 before scheduled interviews with the
IRS. Prior to December 1998, taxpayer rights during IRS interviews were not specifically
mentioned in Publication 1. The RRA 98 required the IRS to revise Publication 1 to include
information concerning taxpayers’ rights to be represented at interviews with the IRS and to
suspend an interview pursuant to I.R.C. § 7521(b)(2). Specifically, Publication 1 was revised to
include the following statement of taxpayer rights:
           You may either represent yourself or, with proper written authorization, have someone
           else represent you in your place. Your representative must be a person allowed to
           practice before the IRS, such as an attorney, certified public accountant, or enrolled
           agent. If you are in an interview and ask to consult such a person, then we must stop and
           reschedule the interview in most cases.
The IRS has also included information on these rights in other publications, such as:

3
    A manual containing the IRS’ internal guidelines.
                                                                                             Page 3
                   Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                      Contacting Taxpayers



    •   Your Federal Income Tax (Publication 17).
    •   Tax Guide for Small Business (Publication 334).
    •   Examination of Returns, Appeal Rights, and Claims for Refund (Publication 556).
    •   The Examination Process (Publication 3498).
In addition, the IRS uses Practice Before the IRS and Power of Attorney (Publication 947) to
inform taxpayers of their representatives’ responsibilities and to notify taxpayers that the IRS has
the authority to bypass representatives that are uncooperative. Specifically, Publication 947
states “After a valid power of attorney is filed, the IRS will recognize your representative.
However, if it appears the representative is responsible for unreasonably delaying or hindering
the prompt disposition of an IRS matter by failing to furnish, after repeated requests,
nonprivileged information, the IRS can contact you directly.”
As a result, taxpayers may be better informed of their rights to representation during interviews
with the IRS through the expanded information avenues made available to them.

Compliance With Statutory Requirements for Restrictions on Directly
Contacting Taxpayers Cannot Be Determined
We could not determine whether the IRS complied with I.R.C. §§ 7521(b)(2) and (c)
requirements when directly contacting taxpayers and their representatives because the IRS could
not readily identify cases in which taxpayers requested to consult with a representative or in
which IRS employees improperly bypassed a taxpayer’s representative. This is the eleventh year
in which we have reported our inability to give an opinion on the IRS’ compliance with the
I.R.C. §§ 7521(b)(2) and (c).
One way to identify possible violations of these taxpayer rights is to determine whether
taxpayers complained that an IRS employee intentionally denied them their right to
representation or bypassed their representative without proper approval. The Taxpayer Advocate
Management Information System4 and the IRS Commissioner’s Information Tracking System5
do not track these types of complaints. However, taxpayer complaints that allege IRS employees
bypassed their representatives and contacted them directly are tracked on the Performance and
Results Information System6 by the Treasury Inspector General for Tax Administration Office of


4
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service function employees.
5
  The Information Tracking System is a system used by the IRS to control and track information and
correspondence.
6
  The Performance and Results Information System is a management information system that provides the Treasury
Inspector General for Tax Administration with the ability to manage complaints received and investigations
initiated.
                                                                                                       Page 4
                    Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                       Contacting Taxpayers



Investigations. The Office of Investigations closed nine direct contact complaint/investigation
cases between October 2007 and September 2008. In six substantiated complaints, five revenue
officers and one revenue agent improperly bypassed taxpayer representatives and were either
counseled or reprimanded for their actions.
Ultimately, the IRS relies on its employees to ensure that the direct contact provisions of
I.R.C. §§ 7521(b)(2) and (c) are followed. Although the IRS does not systemically monitor its
employees’ compliance, we believe the procedures and guidelines it has established for its
employees and the revisions it has made to the publications given to taxpayers adequately
address the requirements of the law.
In Fiscal Years 2001 and 2002, the Small Business/Self-Employed Division issued temporary
guidance to its compliance managers, directing them to “take whatever steps are necessary
(including discussion in group meetings, case reviews, workload reviews, on-the-job visits, and
taxpayer/POA [Power of Attorney] inquiries) to ensure these requirements [the requirements
mandated by I.R.C. §§ 7521(b)(2) and (c)] are understood and followed by employees.” A
variation of this guidance was eventually put into the Collection Group Manager, Territory
Manager, and Area Director Operational Aid found in the IRM.7
While the IRS has assigned group managers responsibility for monitoring employee compliance
with the direct contact provisions, the IRM only provides guidance for Collection function group
managers. Currently, there is no requirement in the IRM that specifically requires Examination
function group managers to address direct contact issues during reviews even though such
reviews are a key control component that ensures procedures are followed and work is meeting
acceptable standards. Having such a requirement is consistent with the Government
Accountability Office Standards for Internal Control in the Federal Government,8 which
requires that control activities help ensure that management directions to mitigate risks are
followed. Moreover, the documentation from the reviews could provide needed support for
providing greater assurances that Examination function employees are following the direct
contact provisions in their day-to-day contact with taxpayers and their representatives.
The six substantiated complaint/investigation cases closed during Fiscal Year 2008 are very
small compared to the millions of taxpayer contacts IRS examiners and collectors make each
year. However, neither we nor the IRS can provide assurances that there were not other potential
direct contact violations. As we previously reported,9 IRS management information systems do
not separately record or monitor cases that involve direct contact issues, and there is no legal
requirement to do so. Given the small number of complaints received in this area over the years,
establishing such a system may entail costs that would outweigh potential benefits. However,


7
  IRM Section 1.4.50.5.13.
8
  GAO/AIMD-00-21.3.1, dated November 1999.
9
  Fiscal Year 2008 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference Number
2008-40-090, dated March 27, 2008).
                                                                                                         Page 5
                 Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                    Contacting Taxpayers



the IRS could take better advantage of group manager review processes to ensure that
Examination function employees are properly following the direct contact provisions.
We believe that by improving Examination function group manager guidance in the IRM, the
IRS would have additional assurance that employees are being informed of their responsibilities
under the direct contact provisions and may help Examination function group managers prevent
uninformed employees from violating taxpayer rights.

Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
update the IRM to include specific guidance that Examination function group managers take
whatever steps are necessary (including discussion in group meetings, case reviews, workload
reviews, on-the-job visits, and taxpayer/Power of Attorney inquiries) to ensure the requirements
mandated by I.R.C. §§ 7521(b)(2) and (c) are understood and followed by their employees.
      Management’s Response: IRS management agreed with our recommendation and
      will update IRM Section 1.4.40 to include specific guidance for Examination function
      group managers to ensure that the requirements of I.R.C. §§ 7521(b)(2) and (c) are
      understood and followed.




                                                                                          Page 6
                   Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                      Contacting Taxpayers



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with legal
guidelines addressing the direct contact of taxpayers and their representatives as set forth in
I.R.C. §§ 7521(b)(2) and (c). To accomplish this objective, we:
I.      Obtained confirmation from the Small Business/Self-Employed Division that the IRS
        neither has, nor plans to implement, a system or process to identify or track cases in
        which taxpayers have requested to consult with a representative or in which an IRS
        employee bypassed a representative.
II.     Interviewed various IRS and Treasury Inspector General for Tax Administration
        personnel responsible for the Taxpayer Advocate Management Information System,1 the
        Information Tracking System,2 and the Performance and Results Information System3 to
        determine whether there is a system to track taxpayer complaints relating to violations of
        the direct contact provisions of the law.
        A. Identified nine direct contact complaint/investigation cases on the Performance and
           Results Information System closed by the Treasury Inspector General for Tax
           Administration Office of Investigations during the period October 14, 2007, through
           September 15, 2008.
        B. Obtained and reviewed the closed Office of Investigations case files to determine
           their validity and what actions were taken by the IRS as a result of the
           complaints/investigations.
III.    Obtained information on the actions taken by the IRS in response to I.R.C. §§ 7521(b)(2)
        and (c) to determine the impact on IRS programs.
        A. Reviewed all prior Treasury Inspector General for Tax Administration audit reports
           for the statutory direct contact reviews and summarized the audit results,
           recommendations, and corrective actions taken by the IRS.



1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service function employees.
2
  The Information Tracking System is a system used by the IRS to control and track information and
correspondence.
3
  The Performance and Results Information System is a management information system that provides the Treasury
Inspector General for Tax Administration with the ability to manage complaints received and investigations
initiated.
                                                                                                       Page 7
                       Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                          Contacting Taxpayers



           B. Reviewed historic and current IRM4 sections to identify any updates made in response
              to I.R.C. §§ 7521(b)(2) and (c).
           C. Reviewed IRS.gov (the public IRS Internet site) and related IRS publications to
              identify how the IRS informs taxpayers of its prohibition against directly contacting
              taxpayers in certain situations.




4
    A manual containing the IRS’ internal guidelines.
                                                                                              Page 8
                Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                   Contacting Taxpayers



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Bryce Kisler, Audit Manager
Sharon Summers, Lead Auditor
Erlinda Foye, Auditor




                                                                                      Page 9
                Fiscal Year 2009 Statutory Review of Restrictions on Directly
                                   Contacting Taxpayers



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 10
    Fiscal Year 2009 Statutory Review of Restrictions on Directly
                       Contacting Taxpayers



                                                      Appendix IV

Management’s Response to the Draft Report




                                                             Page 11
Fiscal Year 2009 Statutory Review of Restrictions on Directly
                   Contacting Taxpayers




                                                         Page 12
